      U.S. Department of Labor
      Office of Inspector General
            Office of Audit




        Performance Audit of
CHICAGO STATE UNIVERSITY
 Welfare-to-Work Competitive Grant
             For the Period
October 1, 1999 through March 31, 2002




                      Audit Report Number: 05-04-007-03-386

                      Date Issued: March 26, 2004
Chicago State University Welfare-to-Work Competitive Grant




                                       Table of Contents

                                                                                   Page

Acronyms                                                                             ii

Executive Summary                                                                    1

Background                                                                           2

Objective, Scope, and Methodology                                                    4

Findings and Recommendations

        1.      Administrative Costs Were Reported as Program Costs                  6

        2.      Expenditures Were Not Reported Properly for Participants Served
                Under the General Eligibility Criteria (70 Percent Category) and
                the Other Eligibility Criteria (30 Percent Category)                 8

Appendix

        Grantee’s Response to Draft Report                                          10




DOL-OIG Report No. 05-04-007-03-386                                                  i
Chicago State University Welfare-to-Work Competitive Grant




                                             Acronyms

AFDC            Aid to Families with Dependent Children

CFR             Code of Federal Regulations

CSU             Chicago State University

DOL             U.S. Department of Labor

ETA             Employment and Training Administration

IDHHS           Illinois Department of Health and Human Services

OMB             Office of Management and Budget

OIG             Office of Inspector General

QFSR            Quarterly Financial Status Report

TANF            Temporary Assistance for Needy Family

WtW             Welfare-to-Work




DOL-OIG Report No. 05-04-007-03-386                                ii
Chicago State University Welfare-to-Work Competitive Grant




                                      Executive Summary

The Office of Inspector General (OIG) conducted a performance audit of the $4,792,500
Welfare-to-Work (WtW) Competitive Grant awarded to Chicago State University (CSU).
Our audit objective was to determine whether CSU was in compliance with the applicable
laws and regulations as it pertained to grant costs and eligibility of grant participants.

The CSU reported expenditures of $3,493,152 in support of 249 WtW participants for the
period October 1, 1999 through March 31, 2002. We tested a judgmental sample of staff
salaries and fringe benefits, as well as administrative, program, and service provider costs
totaling $918,779. We also tested participants= program eligibility and reviewed the
grantee=s compliance with the grant requirements and principal criteria. However, our
selective testing was not designed to express an opinion on CSU=s Quarterly Financial
Status Report (QFSR).

We found:

    •   Administrative costs were reported as program costs resulting in $909,656 of
        excessive administrative costs, and

    •   Expenditures were not reported properly for participants served under the General
        Eligibility and Other Eligibility criteria.

We recommend that the Assistant Secretary for Employment and Training:

    •   Recover questioned costs of $909,656.

    •   Inform CSU that they have billed the maximum allowable administrative costs under
        the grant.

    •   Direct CSU in the future to report the actual breakdown of general eligibility
        expenditures and other eligibility expenditures based on actual costs.

CSU officials agreed with our recommendations. CSU’s response to our draft report is
included in its entirety as an appendix to this report.




DOL-OIG Report No. 05-04-007-03-386                                                            1
Chicago State University Welfare-to-Work Competitive Grant




Background

                       The Personal Responsibility and Work Opportunity Reconciliation
  Objective of         Act of 1996 established the Temporary Assistance for Needy Families
 Welfare-to-Work       (TANF) program. The TANF provisions substantially changed the
                       nation=s welfare system from one in which cash assistance was
provided on an entitlement basis to a system in which the primary focus is on moving
welfare recipients to work and promoting family responsibility, accountability, and self-
sufficiency. This is known as the Awork first@ objective.

Recognizing that individuals in TANF may need additional assistance to obtain lasting jobs
and become self-sufficient, the Balanced Budget Act of 1997 amended certain TANF
provisions and provided for Welfare-to-Work (WtW) grants to states and local communities
for transitional employment assistance that moves hard-to-employ TANF welfare recipients
into unsubsidized jobs and economic self-sufficiency.

The Welfare-to-Work and Child Support Amendments of 1999 allow grantees to effectively
serve both long-term welfare recipients and noncustodial parents of low-income children.

Of the $3 billion budgeted for the WtW program in Fiscal Years 1998 and 1999, $711.5
million was designated for award through competitive grants to local communities.

                            On September 30, 1999, Chicago State University (CSU)
   Chicago State University received a 30-month WtW competitive grant in the amount of
      Competitive Grant     $4,792,500. The period of performance was October 1, 1999
                            through March 29, 2002. There were two grant
                            modifications. The first modification realigned the budget;
amended Special Clause Number 2; incorporated the current negotiated indirect cost
agreement effective December 1, 1998; and increased the consultant fees from $400 per day
to $450 per day.

The second modification effective February 21, 2002, realigned the budget and extended the
grant period through March 31, 2003. No additional funding was included in the grant
modifications.

The purpose of the grant was to focus specifically on the barriers to economic self-
sufficiency of welfare recipients who were victims of domestic violence and individuals
who have traditionally been the hardest to employ by providing them with job readiness, job
retention skills and services, as well as educational and vocational training. Job readiness
and job retention services include the following: orientation to the CSU Works Program, a
CSU Works job placement position on the Chicago State University campus, referral to

DOL-OIG Report No. 05-04-007-03-386                                                       2
Chicago State University Welfare-to-Work Competitive Grant



appropriate support services, mentoring, tutoring, life skills, and outreach services. The
grant goal was to serve 175 participants, and place 100 of them into unsubsidized
employment.

                      In addition to the provisions of the Balanced Budget Act of 1997, the
Principal Criteria    U.S. Department of Labor (DOL) issued regulations found in 20 Code
                      of Federal Regulation (CFR) 645. Interim regulations were issued
                      November 18, 1997. Final regulations were issued on
January 11, 2001 and became effective April 13, 2001. Also on April 13, 2001, a new
Interim Final Rule became effective, implementing the Welfare-to-Work and Child Support
Amendments of 1999. This resulted in changes in the participant eligibility requirements for
competitive grants, effective January 1, 2000.

As an institution of higher education, CSU is required to follow general administrative
requirements contained in Office of Management and Budget (OMB) Circular A-110, which
is codified in DOL regulations at 29 CFR 95, and OMB Circular A-21 requirements for
determining the allowability of costs.

                    On February 16, 2000, we issued a report on the results of a postaward
Postaward Survey    survey of third-round competitive grantees. CSU was included in that
                    review. During this audit, we followed up on our concerns identified
                    in the postaward survey. Based on our audit work, some concerns
were not adequately addressed by CSU and are noted in the findings section of this report.




DOL-OIG Report No. 05-04-007-03-386                                                          3
Chicago State University Welfare-to-Work Competitive Grant




                           Objective, Scope, and Methodology

                        Our audit objective was to determine whether CSU was in compliance
    Objective           with the WtW grant agreement, applicable laws and regulations as they
                        pertained to grant costs and eligibility of grant participants.

                        Our audit included financial and program activities that occurred from
Audit Scope and         October 1, 1999 through March 31, 2002. Our review of management
 Methodology            controls was limited to financial management and eligibility
                        management at the grantee level. We did not audit performance
                        measurements at CSU.

As part of our audit planning, we conducted a vulnerability assessment of the financial
management, participant eligibility, and cost allocation processes to determine if we could
limit the audit procedures in any of these areas. As a result of the vulnerability assessment,
we determined further work was warranted. Judgmental sampling was chosen as our
sampling methodology to test costs and participant eligibility. Accordingly, we did not
project the results of our sample to the entire universe of financial transactions or
participants. In addition, our selective testing was not designed to express an opinion on
CSU=s QFSR.

Of the $3,493,152 claimed costs reported on the QFSR as of March 31, 2002, we selected
111 transactions, totaling $918,779, to test for allowability of personnel costs ($118,414)
and non-personnel costs ($800,365, which included indirect costs of $310,618). These
transactions included staff salaries and fringe benefits, administrative expenditures, program
costs, and service provider costs. Our testing was based on the vulnerability assessment.
We selected transactions from various accounts based on a judgment of low to medium
vulnerability, and indirect cost items based on high vulnerability. Selection was
judgmentally based on the various accounts and obtaining a high mix of low and high dollar
transactions from October 1, 1999 through March 31, 2002.

CSU reported 249 participants served on its QFSR dated March 31, 2002. We reviewed a
list of WtW participants provided by CSU and determined the universe of eligible WtW
participants served was 249, which agreed to the QFSR. There was a change in participant
eligibility requirements, effective January 1, 2000. Since all participants were enrolled after
January 1, 2000, we created one universe for sample selection. To assess participants’
eligibility, we used judgmental sampling techniques to select a sample of 30 participants
enrolled from January 1, 2000 through March 31, 2002. We reviewed their files to
determine if they met eligibility requirements. This included reviewing welfare information
provided to CSU by Illinois Department of Human Services offices at Auburn Park,


DOL-OIG Report No. 05-04-007-03-386                                                          4
Chicago State University Welfare-to-Work Competitive Grant



Calumet Park, and Roseland, Illinois, to determine whether certain participants met TANF
and/or Aid to Families with Dependent Children (AFDC) cash assistance requirements as of
each participant=s WtW eligibility determination date. During our audit, we reviewed
compliance with the grant requirements and principal criteria cited on page 2.

To accomplish the audit objectives, we interviewed CSU officials. We also obtained and
reviewed grantee policies and procedures, participant files, accounting records, and source
documentation, such as contracts, service provider agreements, invoices, purchase orders,
purchase requisitions, direct payment vouchers, cancelled checks, payrolls, and records of
fringe benefits to support claimed costs.

We conducted our audit in accordance with Government Auditing Standards for
performance audits, issued by the Comptroller General of the United States.




DOL-OIG Report No. 05-04-007-03-386                                                       5
Chicago State University Welfare-to-Work Competitive Grant




                             Findings and Recommendations

1. Administrative Costs Were Reported as Program Costs

We found that CSU routinely charged indirect costs as program costs.

                                 The U.S. Department of Health and Human Services
 Administrative costs            (HHS) has approved a predetermined indirect cost rate of
 exceeded 15% of the grant       49 percent for the period July 1, 1999 through
 award resulting in $909,656     June 30, 2004 for CSU to allocate the costs of building use
 of questioned costs.            allowance/capital improvements, equipment use allowance,
                                 operating and maintenance, library, general administration,
                                 departmental administration and sponsored program
administration. We are of the opinion that the types of costs included in the indirect cost
pool meet the “costs of administration” definition set forth in Section 645.235 (b) of CFR
20, which states:

        The costs of administration are that allocable portion of necessary and
        allowable costs associated with the overall management and administration
        of the WtW program and which are not directly related to the provisions of
        services to participants. Theses costs can be both personnel and non-
        personnel and both direct and indirect.

CSU charged indirect costs to the grant based on the predetermined indirect cost rate. The
total indirect costs charged as program costs were $1,144,279. As a result of this practice,
CSU has exceeded the 15 percent limitation of administrative costs of $718,875 (15% of
$4,792,500). Therefore, we have questioned the amount claimed in excess of the maximum
allowable amount as follows:


                                 Expenditures at March 31, 2002
                          Administrative Costs                $484,252
                          Indirect Costs                    $1,144,279
                          Total Administrative Costs        $1,628,531
                          Maximum Allowable                   $718,875
                          Amount
                          Questioned Costs                    $909,656




DOL-OIG Report No. 05-04-007-03-386                                                       6
Chicago State University Welfare-to-Work Competitive Grant



During audit fieldwork, CSU officials indicated to us that indirect costs for this grant were
not administrative costs. This was a misinterpretation of the regulations.

Section 645.235 (a)(2) of CFR 20 states: “. . . The limitation on expenditures for
administrative purposes under WtW competitive grants will be specified in the grant
agreement but in no case shall the limitation be more than fifteen percent (15%) of the
grant award.”

We informed CSU in a management letter resulting from the postaward survey that it had
not identified all budgeted costs that would meet the WtW definition for administrative costs
or established control within their account system to ensure actual WtW administrative
expenditure would not exceed the 15 percent maximum limitation.

CSU’s Response:

CSU agreed to OIG’s assertion that administrative costs were reported as program costs.
CSU stated that it will provide allowable stand in costs to offset the questioned costs. CSU
provided a list of possible stand in costs.

OIG’s Conclusion:

CSU must provide the proposed stand in program costs to the ETA Grant Officer for
review/approval.

Recommendations:

We recommend that the Assistant Secretary for Employment and Training:

            •   recover the questioned costs of $909,656; and

            •   inform CSU that they have billed the maximum allowable administrative
                costs under the grant.




DOL-OIG Report No. 05-04-007-03-386                                                         7
Chicago State University Welfare-to-Work Competitive Grant




2.      Expenditures Were Not Reported Properly for Participants Served Under the
        General Eligibility Criteria (70 Percent Category) and the Other Eligibility
        Criteria (30 Percent Category)

                                         The general eligibility (70 percent category) and other
  CSU is not reporting the actual
                                         eligibility (30 percent category) expenditures were not
  costs and ratio of the 70% and
                                         properly reported on the March 31, 2002 QFSR.
        the 30% categories
                                       CSU did not report the actual breakdown of general
eligibility and other eligibility expenditures based on CSU=s allocation worksheet. Instead,
the totals on the allocation worksheet were apparently adjusted to ensure that not more than
30 percent of expenditures were spent on other eligibility category. These were the totals
reported on the QFSR. The reported amounts and the amounts supported by the allocation
worksheet are as follows:

                                 March 31, 2002 QFSR         Allocation Worksheet
                                 Amount       Percentag      Amount       Percentage
                                              e
        General Eligibility       $2,445,206      70           $2,348,518         67
        Other Eligibility         $1,047,946      30           $1,144,634         33
        Totals                    $3,493,152     100           $3,493,152        100


Section 645.211 of CFR 20 states:

        An operating entity . . . may spend not more than 30 percent of the WtW funds
        allotted to or awarded to the operating entity to assist individuals who meet the
        “other eligibles” eligibility requirements . . . . The remaining funds allotted to or
        awarded to the operating entity are to be spent to benefit individuals who meet the
        “general eligibility” and/or “noncustodial parents” eligibility requirements . . .

In order for ETA to know if the grantee is meeting this requirement, expenditures should be
reported accurately.

We informed CSU in a management letter resulting from the postaward survey that written
policies and procedures must be in place to ensure that program expenditures are spent in
accordance with Federal requirements, which include the 70/30 percent cost limitations.




DOL-OIG Report No. 05-04-007-03-386                                                             8
Chicago State University Welfare-to-Work Competitive Grant



CSU’s Response:

CSU agreed with OIG’s assertion and stated that it will reconcile the actual costs incurred
applicable to participants in the general eligibility and other eligibility categories and will
revise the QFSR accordingly.

OIG’s Conclusion:

The ETA Grant Officer needs to verify that CSU has fully implemented the required
corrective actions.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct CSU to
report the actual breakdown of general eligibility expenditures and other eligibility
expenditures based on actual costs.




DOL-OIG Report No. 05-04-007-03-386                                                               9
Chicago State University Welfare-to-Work Competitive Grant



                                                                 Appendix




                            Grantee’s Response to Draft Report




DOL-OIG Report No. 05-04-007-03-386                                    10
Chicago State University Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-04-007-03-386                          11
Chicago State University Welfare-to-Work Competitive Grant




DOL-OIG Report No. 05-04-007-03-386                          12
